                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A05-32
                                                                               11           Page 1 of 1



    Our office received an allegation, from a PI, that an institution inappropriately "froze" his
    research grants'. The institution also requested his resignation after an allegation of personal
    misconduct was lodged against him. He claims the institution acted inappropriately by freezing
    his grant money, and eventually canceling the grant, without giving him due process. He also
    stated that the institution acted to gain economic advantage because they would not have to
    expend a significant amount of resources it pledged in cost-sharing to purchase research
    equipment.

     We wrote to the institution to obtain their perspective of the events. The institution stated that
     the purchase of the equipment was originally delayed because of renovation efforts taking place
     at their science center. Subsequently, the institution says it was notified that the PI had "engaged
     in activities incompatible with campus values". The PI was asked to leave campus and was
     eventually dismissed. The institution further stated that no other faculty member had sufficient
     expertise to properly use the equipment the grant was supposed to purchase. Therefore, the
     institution felt obliged to return the funds.

     The actions of the institution, as it regards the NSF grant, appear to be reasonable. Accordingly, this
     case is closed.
